No..

ffinurf ni ftp ^Lmfab jSfafes
Robert Grundstein Esq.
vs
Vermont Board of Bar Examiners

On Petition for Writ of Certiorari to the Vermont State Supreme Court

CERTIFICATE OF WORD COUNT COMPLIANCE
I declare under penalty of perjury that the foregoing is true and correct:
The Word Count for the relevant parts of this Writ Petition is Y 2 r f~ words,
excluding introductory materials, Table of Contents, Table of Authorities and
Signature Block at end.
8/s Robert H. Grundstein
Robert H. Grundstein Esq.
18 Griggs Road
Morrisville, Vermont 05661
rgrunds@pshiit.com/802-397-8839
Robert H. Grundstein Esq.
18 Griggs Road
Morrisville, Vermont 05661
rgrunds@pshift.com
802-397-8839

Joshua Diamond/Assistant AG
109 State Street
Montpelier, VT 05609
Joshua.Diamond@vermont.gov
802-828-5529

Attorney for Petitioner

Attorney of Record

